WAIVER

Supreme Court of the United States

No. 19-26

Darlene Collins, et al. v. Charles W. Daniels, et al.
(Petitioners) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:

OQ Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents, Please enter my
appearance as Counsel of Record for the following respondent(s):

The Board of County Commissioners of the County of Bernalillo

(the Petition incorrectly identified the name of this Respondent)

 

@ Iam a member of the Bar of the Supreme Court of the United States.

Q Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

/s/ Brandon Huss

 

 

Signature
Date: 07/16/2019
(Type or print) Name. Brandon Huss

 

CY Mr. OMs. OMrs, O Miss
Firm ___The New Mexico Association of Counties
‘Address 111 Lomas Blvd. NW

 

City & State_Albuquerque, New Mexico Zip 87102
Phone 505-820-8116

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONERS IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Co: Mr. Aubrey Blair Dunn
Western Agriculture, Resources, and Business Advocates, LLP
400 Gold Ave SW
Albuquerque, NM 87102
505-750-3060

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

 
